March 30, 2021
Via electronic filing
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Dart v. Mays, et al., No. 20-990

Dear Mr. Harris:
I represent the respondents with respect to the above-referenced petition for
certiorari. A response is currently due on April 15, 2021. Respondents respectfully request
that the time to file a response be extended by 29 days, up to and including Friday, May 14,
2021. Petitioner consents to the requested extension.
The extension is warranted because counsel for the respondents have been occupied
with time-sensitive appeals and briefing in other matters, including preparing for oral
argument in Ross v. Gossett, No. 20-1992 (7th Cir.), which is scheduled to occur on April 1.
In addition, the ongoing Covid-19 pandemic and related closures have caused additional
burdens on counsels’ time unrelated to their legal practice. An extension of 29 days will
allow counsel for respondents to prepare a comprehensive response that fully addresses the
issues raised by petitioner and will aid the Court’s efficient resolution of this matter.
A copy of this letter has been concurrently served upon counsel for the petitioner.
Thank you for your consideration of this request.
Respectfully submitted,

Sarah Grady
Counsel of Record for Respondents
cc:

Gretchen Sperry, Robert T. Shannon, James M. Lydon, Hinshaw & Culbertson, 151
North Franklin Street, Chicago, IL 60606 (via email and U.S. mail)

